MARCH 31, 2005




MEMORANDUM FOR:          EMILY STOVER DeROCCO
                         Assistant Secretary for
                          Employment and Training



FROM:                      ELLIOT P. LEWIS
                           Assistant Inspector General
                            for Audit

SUBJECT:                   Complaint Involving the Citizen and Justice Academy
                           Gulfport, Mississippi
                           Report Number 04-05-003-03-390

The Office of Inspector General (OIG) audited a complaint made against the
Citizen and Justice Academy (CJA) program through the OIG Hotline. The
complaint alleged that ineligible participants were placed in the Workforce
Investment Act (WIA) Program; participants determined to be incarcerated were
maintained as “active” in the program; and there were possible improprieties by
the CJA Director. After examining the available information, we conclude the
allegations were not substantiated.

The Gulf Coast Business Services Corporation (GCBSC) awarded the University
of Southern Mississippi (USM) a total of $247,074 in WIA funds to administer the
CJA Program for Program Years (PY) 2002 and 2003. The CJA Program
targeted youth offenders ages 16 through 21, in the Gulfport, Mississippi
Municipal Court system. CJA participants were required to complete a 3-week
course that included 40 hours of civics and community building, plus 40 hours of
community service. In addition, participants who wished to remain in the WIA
Program were encouraged to finish their education, and/or obtain employment.
Other participants were allowed to exit the program. Participants employed the
first, third, and fifth quarters after being placed in employment were considered
by GCBSC to have successfully completed the program.
The table below illustrates CJA’s performance goals and outcomes for PY 2002
and PY 2003.

                  CJA’s PERFORMANCE GOALS and OUTCOMES

                 Program       Enrolled             Exited
                   Year       Goal  Actual        Goal Actual

                   2002        100       57         45       40
                   2003        100       25        112        5

None of the participants were considered to have successfully completed the
program because they were not retained in employment as required.


OBJECTIVE, SCOPE, AND METHODOLOGY

We audited the CJA program to determine if the allegations made in the
complaint against CJA could be substantiated.

To determine the merits of the allegations, we interviewed CJA, GCBSC, and
USM officials and reviewed the following documentation: contract information, a
list of participants who were in the program, expense reports, and local directives
and applicable regulations for the program. We selected a judgmental sample of
15 from 82 (18 percent) files of participants who were in the CJA Program during
PY 2002 and PY 2003 to determine if the participants were incarcerated while
being maintained as active in the program. Our sample was selected with
emphasis on participants identified as incarcerated. Other factors used to select
the sample included activity status (non-exiters and exiters), and their
employment status at various times after exiting the program. We conducted
fieldwork from June 29, 2004, through August 16, 2004, at the CJA in Gulfport,
Mississippi, and the OIG Regional Office in Atlanta. Our testing of internal
controls focused only on those controls related to our audit objective of
determining whether the allegations could be substantiated, and were not
intended to form an opinion on the adequacy of internal controls overall, and we
do not render such an opinion. Our audit was performed in accordance with
Government Auditing Standards.


RESULTS

We conclude that the allegations could not be substantiated. The results of our
audit are discussed below.




                                         2
Allegation 1. Ineligible Participants Were Placed in the Program

The complaint alleged that participants convicted of a felony should not have
been allowed to enroll in the CJA Program. We interviewed program officials
and reviewed the applicable participant eligibility requirements for the CJA
Program. According to GCBSC’s Youth Manager and the CJA’s Director,
they did not impose additional eligibility requirements beyond those in the
Federal regulations. Moreover, there were no policy or regulations that
prohibited felons in the program. Therefore, we conclude the allegation was
not substantiated.


Allegation 2. Participants Determined to be Incarcerated Were
Maintained As “Active” in the Program

The complaint alleged that participants who had been arrested and/or
convicted after placement were listed as “active” participants in the program.
We judgmentally selected 15 participant files, which included 7 participants
identified as incarcerated during our audit period.

Based on our review of the 15 participants’ files, we determined that none of
the participants were placed in unsubsidized employment by CJA. According
to the seven participants’ files that were identified as being “incarcerated,”
CJA learned of the participants’ incarceration after the participants did not
report to class or during follow-up evaluations. We found that CJA officials
terminated the individuals after learning of their incarcerations. Additionally,
we found no indication that any of the other eight participants selected were
incarcerated while active. We conclude the allegation was not substantiated.


Allegation 3. Possible Improprieties by the CJA Director

The complaint alleged possible improprieties by the CJA Director, which
included receiving indirect compensation as a result of the program, using his
position to assure success of the program, failing to enforce the terms of
sentencing orders in his capacity as Chief Judge, and controlling the staff who
operated the program. We conclude that the allegation of possible
improprieties was not substantiated.

   A. The complaint stated that the CJA Director, who was also the Chief
      Judge and a full time professor at USM, received indirect
      compensation from USM in the form of a reduced class load. Our
      review revealed that the CJA Director received a reduced class load
      from USM as a result of securing the contract for the CJA program.


                                      3
      According to USM officials, this is a common practice at the University
      for professors who secure contracts/grants on behalf of the University.
      The reduced class load allows these individuals time to administer the
      contracts/grants program.

   B. The complaint also stated that the CJA Director, while acting as Chief
      Judge, could assure success of the CJA Program as a result of his
      ability to refer individuals to CJA under the sentencing agreement or
      deciding if an individual violated the sentencing agreement. Although
      the CJA Director, in his capacity as Judge, was involved in youth
      referrals to the program, this did not relieve youth offender participants
      from meeting the WIA eligibility requirements. As noted earlier, our
      testing did not disclose any participants who failed to meet WIA
      requirements. On March 22, 2004, GCBSC notified USM that it would
      not receive funding for PY 2004 due to performance concerns.

   C. Additionally, the complaint contended the sentencing agreement states
      a participant in the CJA Program could not violate any local, state or
      Federal law while in the program. Our review of the sentencing
      agreement in the participant files revealed that the agreement was
      silent regarding violation of Federal, state, or local law while in the
      program. Furthermore, we did not find any written guidelines that
      addressed violating Federal, state, or local law while in the program.

   D. Finally, the complaint states that the CJA Director was wholly
      responsible for the participation in CJA, chose the entire staff of CJA,
      and that the staff functioned entirely under his direction. The USM
      contract with GCBSC outlines the duties of the Director, which included
      identifying eligible youth, and recruiting, assigning, and directing
      project staff. Therefore, the director was the responsible party for
      identifying and selecting participants in the program and selecting,
      managing and directing the CJA staff.

As the allegations are unsubstantiated, we are making no recommendations.

We provided a draft of this report to the State of Mississippi Department
of Employment Security. The State did not to respond to the draft report.
Since this report does not contain any recommendations, no response is
required.




                                     4
